PROOF OF SERVICE
I, Paul W. Nusbaum, Jr., do swear or declare that on this date, August 3rd. 2020 , as
required by Supreme Court Rule 29, I have served the enclosed PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and on every other
person required to be served, by depositing an envelope containing the above documents in the
United States mail properly addressed to each of them and with first-class postage prepaid, or by
delivery to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
AMY MEREDITH FELDMAN
502 WASHINGTON AVE STE 101
TOWSON MD 21204
KAREN HESS ROHRBAUGH
Maryland Dept of Human Resources
Office of the Attorney General
311 West Saratoga Street, Suite 1015
Baltimore MD 21201
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 3rd. 2020

17

